<html>
<title> - NEXT STEPS IN THE U.S.-REPUBLIC OF KOREA ALLIANCE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                  NEXT STEPS IN THE U.S.-REPUBLIC OF 
                             KOREA ALLIANCE

=======================================================================


                             JOINT HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                AND THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 27, 2013

                               __________

                           Serial No. 113-31

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

81-697 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                  Subcommittee on Asia and the Pacific

                      STEVE CHABOT, Ohio, Chairman
DANA ROHRABACHER, California         ENI F.H. FALEOMAVAEGA, American 
MATT SALMON, Arizona                     Samoa
MO BROOKS, Alabama                   AMI BERA, California
GEORGE HOLDING, North Carolina       TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            BRAD SHERMAN, California
DOUG COLLINS, Georgia                GERALD E. CONNOLLY, Virginia
LUKE MESSER, Indiana                 WILLIAM KEATING, Massachusetts

                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           BRAD SHERMAN, California
ADAM KINZINGER, Illinois             ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   JOAQUIN CASTRO, Texas
TOM COTTON, Arkansas                 JUAN VARGAS, California
PAUL COOK, California                BRADLEY S. SCHNEIDER, Illinois
SCOTT PERRY, Pennsylvania            JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts













                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. James P. Zumwalt, Acting Assistant Secretary, Bureau of East 
  Asian and Pacific Affairs, U.S. Department of State............     9
The Honorable Thomas M. Countryman, Assistant Secretary, 
  International Security and Nonproliferation, U.S. Department of 
  State..........................................................    17

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. James P. Zumwalt: Prepared statement.........................    11
The Honorable Thomas M. Countryman: Prepared statement...........    19

                                APPENDIX

Hearing notice...................................................    36
Hearing minutes..................................................    37

 
           NEXT STEPS IN THE U.S.-REPUBLIC OF KOREA ALLIANCE

                              ----------                              


                        THURSDAY, JUNE 27, 2013

                       House of Representatives,

                Subcommittee on Asia and the Pacific and

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Steve 
Chabot (chairman of the Subcommittee on Asia and the Pacific) 
presiding.
    Mr. Chabot. The subcommittees will come to order. Before we 
begin, I want to thank my good friend, the gentleman from 
Texas, Judge Poe, chairman of the Subcommittee on Terrorism, 
Nonproliferation, and Trade, for joining the Asia and Pacific 
Subcommittee and holding this hearing this afternoon. I, of 
course, want to thank our ranking member, the gentleman from 
American Samoa, Mr. Faleomavaega; and the gentleman from 
California, Mr. Sherman, the ranking member of the TNT 
Subcommittee, who I believe will be here shortly.
    This year marks a truly important milestone in the U.S.-
South Korean alliance as we commemorate the 60th anniversary of 
the armistice that ended the Korean War. This conflict claimed 
the lives of more than 170,000 U.S. and South Korean soldiers 
and more than 370,000 civilians. Sixty years later, our 
friendship endures and, in fact, has grown stronger.
    A few weeks ago, I had the opportunity to visit South Korea 
with my good friend, the ranking member, Mr. Faleomavaega, to 
meet with President Park, the minister of foreign affairs, and 
other Korean Government officials, as well as tour the 
demilitarized zone and visit with our American troops who live 
and work in that stressful and dangerous environment.
    Today in South Korea, a once war-torn nation has become a 
world class economy and leader in high tech innovation. South 
Korea's growing commitment to democracy, human rights, and the 
rule of law is in strong contrast to its northern neighbor.
    The past 60 years of the U.S.-South Korea relationship is 
best characterized as a close friendship that has steadily 
grown. Today, I think I can confidently say that our bilateral 
relationship is at its best, particularly given the passage and 
implementation of the U.S.-Korea free trade agreement just a 
little over a year ago. The bond between the people of the U.S. 
and the people of South Korea is strong and continues to grow.
    One group that certainly deserves special recognition is 
the Korean American community, which has worked tirelessly to 
ensure that the U.S.-Korea relationship remains strong, 
relevant, and forward-looking.
    With the threat of North Korean belligerence always 
imminent, it is in the U.S.'s and South Korea's best interest 
to ensure that the next 60 years of this relationship are as 
strong and as vibrant as the past 60 years.
    South Korea's economy depends heavily on clean, low-cost 
energy. Without the benefits of domestic energy resources, 
South Korea depends almost entirely on imported energy with the 
exception of power generated by its domestic nuclear energy 
power plants. Given the ROK's continued economic growth, it is 
unlikely that the government can continue to provide enough 
low-cost electricity to fuel its economy. The ability to 
recycle nuclear fuel would ease this problem. That is why it is 
vitally important for the U.S. and South Korea to complete 
negotiations on a modern, 21st century civilian nuclear 
agreement.
    The adoption of a new 123 agreement would also have a 
direct impact on American jobs; in particular, manufacturing 
jobs for those industries supplying South Korea with the 
components it needs to grow and maintain its power supply.
    Earlier this month, I joined Chairman Royce and Ranking 
Member Engel as well as Judge Poe, Mr. Faleomavaega, Mr. 
Collins, and Mr. Kinzinger in introducing H.R. 2449, 
legislation to extend, for 2 years, the current U.S.-South 
Korean civilian Nuclear Energy Cooperation Act, which is 
scheduled to expire in March 2014. An extension agreement while 
negotiators continue to work on and refine substantive issues, 
I believe, is an important and necessary step in this process. 
I look forward to working with the chairman and my colleagues 
in moving the legislation forward.
    When President Park addressed a joint session of Congress 
last month, she reaffirmed South Korea's commitment to the 
vision of a world without nuclear weapons, which must start on 
the Korean Peninsula.
    South Korea has said time and time again that it is firmly 
committed to the principle of nonproliferation. In fact, South 
Korea hosted the second Nuclear Security Summit last year. On 
the other hand, North Korea has made its intentions quite 
clear. The Kim dictatorship has no desire to halt its nuclear 
weapons program. Its recent calls for talks with conditions 
have to be taken, obviously, with a grain of salt.
    North Korea takes no responsibility for its behavior but 
blames the United States for the worsening situation on the 
peninsula. The U.S. must maintain a consistent position that 
makes it crystal clear to the regime in Pyongyang that we will 
not concede to its unreasonable demands. I hope the 
administration pursues a path that will increase security for 
not only South Korea but for the international community as 
well.
    I look forward to hearing from our panel this afternoon. 
And, with that, I yield to the ranking member, the gentleman 
from American Samoa, Mr. Faleomavaega, for his opening 
statement.
    I would note that we are going to have votes on the floor 
shortly, so we will be interrupted. Also, both Judge Poe and 
myself are in the Judiciary Committee, and we are marking up 
one of the immigration bills as I speak, so we are going to be 
going around and trying to tag team this hearing to some 
degree. We hope that doesn't disrupt the hearing too much.
    I recognize the gentleman from Samoa, the ranking member, 
Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. And I do want to 
thank you both and Chairman Poe for your leadership in calling 
this joint subcommittee hearing.
    I also want to offer my personal welcome to Secretary 
Zumwalt and Secretary Countryman for being witnesses to our 
hearing this afternoon.
    Mr. Chairman, you and I recently had the opportunity to 
meet with President Park Geun-hye at the Blue House on April 29 
this year. President Park is the first freely elected woman 
leader among the nations of northeast Asia and the first woman 
President of the Republic of Korea. She is certainly a role 
model for women everywhere.
    I just want to note as something of an historical matter, 
Mr. Chairman, that she is on her way now to Beijing to meet 
with President Xi of the People's Republic of China, what I 
consider a very interesting movement in terms of what is 
happening there.
    I was deeply touched that the first matter which she raised 
with me during our meeting was an op. ed. I wrote about the 
comfort women issue, which was published by the Kyunghyang 
Seoul newspaper on the very day we met with her.
    As you know, during World War II, many young girls were 
forced into wartime brothels. Two hundred thousand Asian women, 
Mr. Chairman, were brought in by Japanese imperial forces. And 
many of these young girls that were forced into sexual slavery 
were from the Republic of Korea. Today, we affectionately refer 
to these women as our godmothers. I refer to them as my 
mothers. Their story is near and dear to my heart. And this is 
why the first hearing I held as chairman of this subcommittee 
was about them.
    I will never forget the courage Madam Park showed in 
attending that hearing, where three victims, two Korean ladies 
and one Dutch lady, sitting right over there testified. At the 
time in 2007, even Members of Congress were hesitant to show 
public support for these women who were forced into sexual 
slavery during World War II, but Madam Park did not hesitate. 
She sat prominently in the front row of this hearing room. That 
was the first Korean leader ever to attend a hearing in the 
U.S. Congress in support of these women.
    I want to once more publicly commend Mr. Dongchan Kim and 
his organization of the Korean American Civic Empowerment for 
taking the lead in spearheading community efforts for the 
successful passage of House Resolution 121, which calls upon 
the Japanese Government to issue a formal apology for what they 
did to some 200,000 Asian women during World War II.
    I also want to add my voice in support of fully 
implementing the U.S.-Korean free trade agreement. On March 20 
of this year, former chairman Ileana Ros-Lehtinen, our dear 
friend and colleague, of the Foreign Affairs Committee and I 
introduced H.R. 1279, the U.S.-Korea Free Trade Agreement 
Fairness Act, a bipartisan legislation which will grant 
Republic of Korea nationals a similar visa status for skilled 
workers as was granted to Australian citizens following the 
successful negotiation of the U.S.-Australia free trade 
agreement. Subsequent to the adoption of the free trade 
agreement with the United States, Australia was able to obtain 
10,500 E3 visas per year, which are similar to the H1B visas 
from the United States, for which only citizens of Australia 
are eligible. Due to some oversight, negotiators failed to work 
out an agreement like this for the Republic of Korea during the 
free trade agreement negotiations with Korea. And this is why 
Congresswoman Ros-Lehtinen and I worked hard in the aftermath 
to create parity for the Republic of Korea.
    As a longstanding ally of the United States, we believe the 
Republic of Korea deserves fair treatment. So we put forward a 
bill which would grant the Republic of Korea nationals 10,500 
visas per year for skilled workers that meet the eligibility 
requirements.
    Given that our bill provides parity, we were hopeful that 
our bill would be passed by this House, but, regrettably, the 
Korean Embassy here in Washington decided they did not want 
parity. They just wanted a little more than 10,000 visas. I am 
not supportive of this higher quota, Mr. Chairman, because it 
is insensitive to other countries and must specify to our 
American workers who do not need to be needlessly displaced. I 
also do not believe we should open up a visa bidding war with 
the trans-Pacific partnership negotiations coming up.
    I am supportive of the 123 civil nuclear cooperation 
agreement, although I do believe we need to take some time to 
work out our differences regarding how to treat fuel-making 
technologies. So I am pleased that we have simply extended the 
current agreement for 2 years until we can resolve these 
technicalities.
    With that, Mr. Chairman, I yield back. And thank you for 
the opportunities.
    Mr. Chabot. I thank the gentleman for his statement. We 
will recognize Chairman Poe for his 5-minute opening statement.
    Mr. Poe. Thank you, Chairman Chabot, for working to put 
this important hearing together about the United States-South 
Korea alliance and the 123 agreement.
    The South Korean people are allies of the United States. We 
have a lot of allies, the United States does. But South Korea 
has a special relationship as an ally. Our two nations, our 
peoples have both shed blood together on the same soil in South 
Korea. That bond makes this relationship unique. South Korea 
has always been important to us because of its national 
security interest in its own right but our national security 
interest. And with President Kim in North Korea, or Junior, as 
I like to call him, being a real threat to South Korea and the 
United States and the rest of the world, it needs to be obvious 
to us and the South Koreans and the rest of the world that our 
relationship is strong and will be stronger.
    One example of the strength of our relationship is our 
cooperation on civilian nuclear energy in the last 30 years. We 
have American companies in South Korea and South Korean 
companies here in the United States. I have a large Korean 
community in my district in Houston.
    And it was good to learn finally--I didn't know--that the 
ranking member was also a University of Houston Law School 
graduate. I did actually graduate from there after you did, but 
it is good to hear that.
    In any event, the agreement that we have has allowed 
cooperation. And the so-called 123 agreement expires next 
March. It turns out a new agreement has been tough to figure 
out and get done. The sticking point seems to be disagreements 
over fuel-making technologies, such as enrichment and 
reprocessing. Enrichment and reprocessing capabilities are 
important because they can be used to make material for nuclear 
weapons.
    South Korea wants the new 123 agreement to include U.S. 
advance consent for future Korean civilian reprocessing and 
enrichment activities. South Korea says it needs advance 
consent to deal with nuclear waste, but it is unclear how dry 
cask storage would solve this problem. I am sure our two 
witnesses will answer that question specifically.
    U.S. law states that it is U.S. policy not to give advance 
consent to enrichment or reprocessing. There are political 
issues in the region. And international agreements already have 
been made that have to be considered as well, but time is 
running out. This past April, the United States and South Korea 
agreed to a simple 2-year extension of the old agreement. I do 
support extending this agreement because it will prevent 
thousands of Americans from losing their jobs, from reactor 
vendors to equipment suppliers. And there are hundreds of 
millions of dollars in bilateral nuclear trade between our two 
Nations. We just can't keep extending agreements indefinitely. 
It reminds me of the CR that we constantly do on the House 
floor on our budget.
    We certainly don't or I don't want another 2 years to pass 
and find us right back here, same witnesses, same story, 
Groundhog Day, trying to make a decision about what to do.
    Our business community needs certainty. Businesses, 
especially in this industry, cannot make financial decisions 
and other business decisions that may be revoked in 2 years. 
Congress needs to also know that the laws it passes will be 
followed by this administration and any administration.
    I am looking forward from our witnesses as to what the 
United States' position should be on these negotiations when it 
comes to advance consent and enrichment. I also want to know 
the difference between 2 years and a long-range solution and 
what their ideas are on that. I do hope both sides understand 
the limitations of the other in a long-term deal until it is 
made.
    And I also want to do comment about the issue that the 
ranking member has brought out of the comfort women. That is an 
issue that is very important, not just for South Korea and 
Japan, but it is important for us to move forward and get that 
issue resolved as soon as possible. That is an historical event 
that cannot be ignored. And we should not ignore it here so 
many, 60 years later.
    But that is a different issue for a different day. And I 
yield back the balance of my time.
    Mr. Chabot. I thank the gentleman for his statement. I 
would just note the Chair agrees with both of the gentlemen on 
the comfort women issue and thank them both for bringing it up.
    We have time to finish the opening statements. We will 
recognize the ranking member of the TNT Subcommittee, the 
gentleman from California, Mr. Sherman.
    Mr. Sherman. Thank you.
    The Republic of Korea and the United States enjoy a strong 
strategic alliance and warm friendship. The relationship is 
based on our commitment to security, to democracy, and 
prosperity. October 1, 2013 will mark the 60th anniversary of 
the signing of the mutual defense treaty between the United 
States and the Republic of Korea. Nearly 40,000 members of the 
United States Armed Forces lost their lives defending the 
people of Korea. Nearly 30,000 troops are stationed in South 
Korea today. The United States has stood with Korea on the 
comfort woman issue, even though another strong ally, the 
United States, is on the other side. And the Korean American 
community, with its 1.7 million members, is an important part 
of the bilateral relationship and of the American fabric.
    I did not support the U.S.-Korea free trade agreement, 
which became effective roughly a year and a few months ago. We 
were told at the time that this would reduce the trade deficit 
with South Korea. In fact, that deficit has increased. The 
deficit hit an all-time high of $2.4 billion in April 2013. 
Imports hit a record high while U.S. exports to South Korea 
actually were less January to April 2013, then January to April 
2012 before the agreement really went into effect. This 
translates into a loss of jobs. We need a more balanced trade 
policy.
    And, as I have said before in this room, if we continue our 
trade policy, there will be a catastrophic drop in the value of 
the United States dollar. But don't worry. It won't happen in 
the next 5 years or probably won't happen in the next 5 years.
    North Korea continues its threats of military aggression 
against our ally, including the March 10 sinking of the naval 
ship, the bombardment of Yeonpyeong Island. The 2013 Korean 
crisis was an escalation of military tensions by North Korea 
against South Korea. The United States and Japan began--that is 
to say it was aimed at all three of those allies, and it began 
following the launch of the so-called satellite December 12, 
2012 and the third nuclear test February 12th, 2013.
    Kim Jong-Un, the new leader of this totalitarian regime, 
has used extreme rhetoric. At more than one point, he has 
threatened imminent attack against the United States homeland. 
The international community has condemned North Korea in its 
military aggression. In March 7, 2013, the United Nations 
Security Council resolution 2094 is just the latest example of 
that.
    Congresswoman Ileana Ros-Lehtinen and I have introduced the 
Iran, North Korea, and Syria Nonproliferation Accountability 
Act of 2013. We introduced the earlier version of that act back 
in 2011. I urge my colleagues to cosponsor that legislation, 
which would target those firms and states that assist North 
Korea, as well as Iran and Syria, develop and build nuclear 
weapons and other weapons of mass and destruction.
    The main reason our subcommittee is involved in these 
hearings is because of the focus on the nuclear cooperation 
agreement between South Korea and the United States. South 
Korea plans to significantly expand its already advanced 
nuclear program in the coming years and decades. The United 
States has been committed to a denuclearization of the 
peninsula and, thus, is opposed to reprocessing and enrichment 
on the peninsula.
    The gold standard model for 123 agreements or nuclear 
cooperation agreements is embodied in our agreement with the 
United Arab Emirates, which legally binds U.S. partners to 
foreswear enrichment and reprocessing. So it comes down to 
enrichment and reprocessing.
    The United States and South Korea have recently agreed on a 
2-year extension of our agreement, rather than revising the 
agreement, but both countries would like to see a long-term 
deal, so would like to enrich uranium and reprocess spent fuel 
rods to develop and expand its nuclear power industry. I 
commend the administration for not agreeing to advance consent 
rights for plutonium reprocessing of fuel of U.S. origin. South 
Korea wants a nuclear agreement that provides U.S. advance 
consent for such reprocessing. And that would carry deep 
proliferation concerns.
    I look forward to further negotiations with South Korea and 
to the resumption of this hearing after votes. I yield back.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    We have votes on the floor. I estimate we will be back in 
about \1/2\ hour to 45 minutes for the series of votes. The 
subcommittees are in recess.
    [Brief recess.]
    Mr. Chabot. The subcommittees will be back in order. We 
have several members who might like to make 1-minute 
statements. We will begin with the gentleman from South 
Carolina, Mr. Wilson.
    Mr. Wilson. Mr. Chairman, thank you very much.
    And, indeed, I would like to express my appreciation of our 
relationship with the Republic of Korea. I have had the unique 
opportunity to visit South Korea several times. And each time I 
visit, it is just awesome to see how dynamic the people are and 
what a great alliance that we have of shared values of working 
together, just honored to be here and look forward to working, 
particularly with a civilian nuclear agreement. I just see such 
positive. In my home State of South Carolina, we have 
Westinghouse Nuclear Fuels/Toshiba. It is a classic case of 
mutual self-benefit.
    Thank you very much.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    The gentleman from Illinois, Mr. Kinzinger, is recognized 
for 1 minute.
    Mr. Kinzinger. Thank you, Mr. Chairman. And thank you for 
holding the hearing and for our guests for coming to testify.
    The alliance between the United States and the Republic of 
Korea has brought stability, security, and prosperity to the 
peninsula and the Asian Pacific region. Recently, the U.S.-
Korean free trade agreement has demonstrated our mutual 
commitment of shared future economic growth and prosperity. 
Trade between our countries totaled around $100 billion in 
2012. It is expected to grow significantly in the coming years 
because of the liberalized trade between the two countries.
    That is not to say we don't face our challenges. Obviously 
we see with North Korea's nuclear and ballistic program, we 
have to continue to stay on our toes and stay committed to a 
situation there, a peaceful solution.
    I want to briefly discuss extending the bilateral civilian 
nuclear cooperation, better known as a 123 agreement. As an 
original cosponsor of 2449, I fully support the 2-year 
extension that has been agreed to in principle by the 
negotiators from the U.S. and the Republic of Korea. 
Substantial progress has been made, but more time is needed to 
complete a new agreement that recognizes both our country 
status as global leaders of nuclear energy.
    I agree with Assistant Secretary Countryman's testimony. 
The swift passage of this 2-year extension would give both 
countries the confidence that they need that our cooperation 
will continue smoothly.
    Thank you, Mr. Chairman. I yield back.
    Mr. Chabot. Thank you.
    The gentleman from North Carolina, Mr. Holding, is 
recognized for 1 minute.
    Mr. Holding. Thank you, Mr. Chairman. With the 
administration's refocus on the Asia Pacific region and the 
growing influence of China in that region, the importance of 
maintaining strong economic and security ties with our allies 
in the Pacific has never been more vital. The United States and 
the Republic of Korea have enjoyed an enduring strategic 
relationship; indeed, Mr. Chairman, an alliance forged on the 
battlefield over 60 years ago and one that grows closer today 
with tightened economic ties and increased threats from hostile 
neighbors.
    Later today, Mr. Chairman, in the Judiciary Committee, I 
will offer an amendment to help realize the full potential of 
the free trade agreement passed in 2011 by increasing the 
number of visas available for highly educated and highly 
skilled Korean workers and students. The addition of these 
visas will be an added benefit to the U.S. economy and further 
solidify our strategic relationship.
    I thank you for calling this hearing, Mr. Chairman. I yield 
back.
    Mr. Chabot. Thank you very much. We will now introduce the 
panel here this afternoon. I will begin with Mr. Zumwalt, who 
began his tour as Deputy Assistant Secretary of State for Japan 
and Korean Affairs on January 3, 2012. He previously served as 
Embassy Tokyo's Deputy Chief of Mission. His prior assignments 
include Director of the Officer of Japanese Affairs, Economic 
Minister Councilor in Tokyo, and Economic Minister Councilor in 
Beijing. He has also worked on the Korea and Philippine Desk in 
Washington. Mr. Zumwalt is fluent in Japanese and also speaks 
some Chinese and French.
    Now I would like to introduce Thomas Countryman, who is a 
career member of the Senior Foreign Service and is currently 
serving as the Assistant Secretary for International Security 
and Nonproliferation. He previously served as the principal 
Deputy Assistant Secretary for Political Military Affairs and 
the Deputy Assistant Secretary for European Affairs. Mr. 
Countryman began his State Department career in 1982, serving 
as a councilor and political officer in Belgrade. His prior 
assignments include Director for Near East and South Asian 
Affairs at the National Security Council, Minister Councilor 
for Political Affairs at the American Embassy in Rome; Deputy 
Chief of Mission at the U.S. Embassy in Athens; and as Foreign 
Policy Adviser to General James Conway, the commandant of the 
U.S. Marine Corps.
    He speaks Serbo-Croatian, Arabic, Italian, Greek, and 
German. Just for the record, I took a little Latin in high 
school and a little French in college. And I think I got a C in 
both.
    We will now recognize each of the witnesses for 5 minutes. 
We have a lighting system; a yellow light will let you know 
that you have 1 minute to wrap up, the red light indicates it 
is time to conclude your testimony. Mr. Zumwalt, you are 
recognized for 5 minutes.

STATEMENT OF MR. JAMES P. ZUMWALT, ACTING ASSISTANT SECRETARY, 
 BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Mr. Zumwalt. Chairman Chabot, Chairman Poe, Mr. 
Faleomavaega, members of the subcommittees, I am pleased to 
appear before you today to discuss this important topic.
    I have submitted a longer statement for the record. And, 
with your permission, I would like to deliver brief oral 
remarks.
    The U.S.-Republic of Korea alliance is a linchpin of 
security and prosperity in Northeast Asia, and our bilateral 
ties have never been stronger. Today, while our alliance 
continues to counter the threat from North Korea, we are 
expanding our cooperation to meet 21st-century challenges.
    During her May 8 address to a joint meeting of Congress, 
Republic of Korea President Park Geun-hye said, ``Along our 
journey, we have been aided by great friends, and, among them, 
the United States is second to none.'' What she was referring 
to is our alliance was forged in shared sacrifice in the Korean 
War. Today, we continue to strengthen and adapt our alliance to 
meet existing and emerging security challenges.
    We have made significant progress on the blueprint for the 
future of our alliance, which outlines the conditions for the 
transition of wartime operational control to a Republic of 
Korea-led defense in December 2015. We continue to improve our 
interoperability and readiness through annual exercises.
    Our cooperation on global challenges is an increasingly 
important pillar of our alliance. Today, American and Korean 
soldiers stand side by side in Afghanistan. Korea has been a 
leader in supporting Iran sanctions. We are working together on 
Syria.
    Our deep economic cooperation forms the engine of our 
strategic relationship. The Republic of Korea is Asia's fourth 
largest economy and our seventh largest trading partner. Our 
two countries' trade topped 100 billion U.S. dollars in 2012. 
This year marks the first anniversary of the entry into force 
of the U.S.-Korea Free Trade Agreement. This agreement is 
increasing trade and investment between our two countries and 
provides significant new opportunities for U.S. exporters. We 
look forward to even more economic benefits as more provisions 
of the agreement are implemented.
    Our ties include strong cooperation in science and 
technology, on cyber issues and on climate change. The United 
States and Republic of Korea are also global leaders and 
partners on peaceful nuclear energy. We both recently decided 
to seek an extension of our existing civil nuclear cooperation 
agreement, and we are in the process of negotiating a successor 
agreement to continue and expand this cooperation. The 
administration is ready to work with Congress to achieve an 
early extension of the existing agreement, and we are grateful 
for your efforts on the related pending draft legislation.
    The foundation of our partnership rests on our people-to-
people ties and our shared commitment to freedom, democracy, 
and the rule of law. Last year, more than 1 million South 
Koreans visited the United States. The Republic of Korea sends 
more university students to the United States per capita than 
any other major economy. The United States is the clear top 
choice for Korean entrepreneurs, scientists, and engineers who 
wish to come here to create businesses and create new jobs and 
develop technologies. And we very much support efforts to 
facilitate these exchanges.
    Let me now turn to our greatest challenge: North Korea. 
Many of the DPRK's provocations in recent months have directly 
targeted the United States and the Republic of Korea. We remain 
fully committed to the defense of the Republic of Korea, and we 
will continue to stand shoulder-to-shoulder with our ally in 
the face of these provocations.
    Despite North Korea's recent overtures, we have yet to see 
concrete steps suggesting that North Korea is prepared to 
negotiate on the key issue: The verifiable denuclearization of 
the Korean Peninsula. We will continue to coordinate closely 
with the ROK and with other Six-Party partners. The United 
States remains committed to authentic and credible negotiations 
to implement the September 2005 Joint Statement of the Six-
Party Talks and to bring North Korea into compliance with its 
international obligations. We will not accept North Korea as a 
nuclear-armed state. Nor will we reward the absence of bad 
behavior or provide compensation merely for talking. U.S.-North 
Korea relations, moreover, cannot fundamentally improve without 
sustained improvement in inter-Korean relations.
    In conclusion, the U.S.-ROK alliance has never been 
stronger. And both our countries are working actively to 
prepare for the future. President Park's landmark visit to 
Washington this past May opened a new chapter in our 
partnership. Strong and enduring congressional support for our 
alliance and partnership with the Republic of Korea has been 
critical to the success of our relationship for the last six 
decades and will be even more important in the future.
    Thank you for inviting me to testify on this important 
topic. I am happy to answer any of your questions.
    [The prepared statement of Mr. Zumwalt follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Chabot. Thank you very much.
    Mr. Countryman, you are recognized for 5 minutes.

  STATEMENT OF THE HONORABLE THOMAS M. COUNTRYMAN, ASSISTANT 
 SECRETARY, INTERNATIONAL SECURITY AND NONPROLIFERATION, U.S. 
                      DEPARTMENT OF STATE

    Mr. Countryman. Mr. Chairman, Chairman Poe, Ranking Member 
Faleomavaega, and members of the subcommittees, thank you for 
this opportunity to testify about the negotiations on a 
successor agreement for peaceful nuclear cooperation between 
the U.S. and the Republic of Korea. The U.S. and the ROK 
continue to be strong allies across the spectrum of political, 
security, and economic issues. I like the way Judge Poe put it. 
We have many allies, but the ROK is a special case. And I don't 
believe any single issue can undo this alliance.
    In the nuclear realm specifically, our two countries have a 
long history of working together on the peaceful uses of 
nuclear energy. And we press forward today with our shared 
objective of achieving the verifiable denuclearization of the 
Korean Peninsula in a peaceful manner.
    Today, I want to focus on this first area: The longstanding 
peaceful nuclear cooperation between our two countries. The 
U.S. and the Republic of Korea are in the process of 
negotiating a new agreement for peaceful nuclear cooperation, 
generally referred to as a 123 agreement. The current agreement 
entered into force in March 1973 and expires in March 2014. The 
U.S. and the ROK began negotiating a successor agreement in 
2010, and we have made substantial progress in negotiating a 
text that will extend our long and fruitful partnership into 
the future.
    Because of the breadth and depth of our current and future 
nuclear cooperation, our two countries jointly decided to seek 
a 2-year extension of the existing agreement to give us more 
time to complete negotiations and then fulfill our respective 
domestic requirements to bring the new agreement into force. 
The extension will facilitate the efforts of both our 
governments to finalize an agreement that promotes U.S. and 
South Korean objectives and requirements for nonproliferation 
and civil nuclear cooperation. An extension would ensure that 
there is no lapse in our ongoing civil nuclear cooperation, 
preserving stability and predictability in our joint commercial 
activities.
    The two sides have pledged to work together diligently and 
to conclude negotiations on a successor agreement as soon as 
possible. In this regard, I want to thank Chairman Royce, 
Ranking Member Engel, and other members of the committee who 
have cosponsored the pending draft legislation, which would 
authorize the President to extend the current term of the U.S.-
Republic of Korea agreement until March 2016. The 
administration stands ready to work with Congress to achieve 
the extension of this existing agreement. And early passage of 
this legislation would provide confidence to both countries, 
including our respective nuclear industries, that our civil 
nuclear cooperation will continue smoothly.
    Mr. Chairman, the United States and the Republic of Korea 
are approaching these negotiations as close allies and partners 
committed to advance both countries' global leadership in the 
peaceful uses of nuclear energy and preventing nuclear 
proliferation worldwide. I am confident our two governments can 
produce a successor agreement that serves as a strong 
foundation for our bilateral civil nuclear cooperation for the 
future and reaffirms our common commitment to nuclear 
nonproliferation.
    So thank you again for this opportunity to discuss this 
important aspect of our relationship with our ally: The 
Republic of Korea. I look forward to your questions, sir.
    [The prepared statement of Mr. Countryman follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Chabot. Thank you very much.
    I will now recognize myself for 5 minutes for questions. I 
would like to ask this to both of the gentlemen. Without 
commenting on the negotiating positions and your opinions, how 
much importance does the Government of the Republic of Korea 
assign to the successful renewal of the 123 agreement, the 
civilian nuclear cooperation agreement? Why is it important to 
the U.S.? What are the implications to the U.S.-Korea alliance 
if, for some reason, the agreement is not renewed? I will start 
with you, Mr. Zumwalt.
    Mr. Zumwalt. I think the agreement is very important to the 
Republic of Korea, partly because of the successful 
relationship our industries have. They would like to see a 
continuation and an enriching of that relationship.
    Mr. Chabot. Mr. Countryman?
    Mr. Countryman. The agreement is important to both 
governments. It serves as a commitment to each other that we 
are both determined to remain both technical and commercial 
leaders in the global nuclear power industry. It ensures that 
we continue to share the vital goal of preventing nuclear 
nonproliferation. And, of course, renewing it on time given 
this 2-year extension will prevent any interruption in our 
commercial cooperation, which is essential, both for United 
States provision of fuel and equipment to nuclear power plants 
in the Republic of Korea and to U.S. content in the power 
plants that the Republic of Korea is selling, for example, to 
the United Arab Emirates. And I am confident that we will not 
reach that situation of facing those consequences because of 
the joint determination of both countries to get a good 
agreement done within the time that we hope you will permit us.
    Mr. Chabot. Thank you.
    Last week, North Korea's U.N. Ambassador held a news 
conference during which he claimed North Korea was essentially 
blameless for tensions on the Korean Peninsula and that their 
recent nuclear and missile tests were purely for self-defense. 
He further claimed that the U.S. is entirely responsible for 
the ever-worsening situation on the Korean Peninsula.
    Now, the history of relations with North Korea has been 
they act up, they act outrageous, stomp around, and we 
criticize them. Then at some point, we and our allies 
essentially buy them off with food and/or fuel. Then they 
promise to be better, and for at least some short period of 
time, at least publicly, they are. Then they act up again and 
we start this process all over.
    How should we avoid this in the future? I will again start 
with you, Mr. Zumwalt.
    Mr. Zumwalt. As I said in my statement, we are determined 
not to reward North Korea for provocation, for refraining from 
provocation, or merely for coming back and talking. So what we 
have stated is that we are open to authentic and credible 
negotiations, which focus on denuclearization of the Korean 
Peninsula, but we are not interested in talks until we see that 
North Korea is serious. And the way we would see this is by 
North Korea taking some concrete steps that show us that they 
have really changed their position.
    So what our strategy now is to engage friends and partners 
in the region, the other Six-Party partners, particularly 
China, who has a unique relationship with North Korea, and 
encourage China to use its influence to try and persuade North 
Korea to take a different tack.
    Mr. Chabot. Thank you.
    Mr. Countryman?
    Mr. Countryman. Nothing to add to that, sir.
    Mr. Chabot. Okay. Under President Park, South Korea intends 
to reach out and develop closer ties with China. As the ranking 
member, Mr. Faleomavaega, mentioned, President Park is meeting 
with President Xi, I believe today or at least they were 
heading there today. What can we expect from this visit, would 
you say? How is this going to affect future relations, et 
cetera, relatively briefly?
    Mr. Zumwalt. We have had extensive consultations with Korea 
about China. And, although I don't want to speak for the Korean 
Government, obviously, we think it is very helpful that she 
goes to China and talks directly. I think she will be asking 
China to use its influence to persuade North Korea to become 
serious about living up to its commitment to denuclearization.
    Mr. Chabot. Thank you.
    Mr. Countryman?
    [No response.]
    Mr. Chabot. All right. I will now recognize the ranking 
member, Mr. Faleomavaega, for 5 minutes for questions.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Just a couple of questions. Secretary Zumwalt, did you say 
that the United States will not accept North Korea as a 
nuclear-armed state? The fact of the matter is North Korea 
already has in its possession eight to ten nuclear weapons. How 
do you denuclearize a state that already has nuclear weapons?
    Mr. Zumwalt. I agree with what you are saying, but North 
Korea has also expressed the desire to improve the welfare of 
its people. And our strategy is to convince North Korea that it 
is not possible both to be a nuclear weapon state and to have 
the kind of economic engagement with the world that would 
improve the livelihood of the North Korea people. So we are 
working with friends and allies in the region, including China, 
Japan, South Korea, and others, to impose economic sanctions 
that we hope would persuade North Korea that it must choose a 
different tack, begin serious negotiations about 
denuclearization so it can achieve what it wishes, which is 
improving the livelihood of the North Korean people.
    Mr. Faleomavaega. Mr. Countryman?
    Mr. Countryman. I would just add not to underestimate the 
difficulty of the task, but the fact is that a unified world 
community sending a consistent message caused four states 
already, Ukraine, Kazakhstan, Belarus, and South Africa, to 
give up possession of nuclear weapons. It ain't easy, but it 
can be done.
    Mr. Faleomavaega. You know, we have been participating in 
the Six-Party Talks with North Korea for the last 6 or 7 years, 
I believe. I certainly have some very serious questions on the 
validity and the value of continuing these Six-Party Talks 
because in my humble opinion, they have been a failure. 
Secretary Zumwalt, could you comment on that? Should we 
continue having these Six-Party Talks? Because it seems like it 
has been just a whole bunch of rhetoric, ``You said this,'' ``I 
said that,'' and tit for tat; with no results. Can you comment 
on this? Should we continue having the Six-Party Talks?
    And why should Russia be part of this when, in fact, at 
least if I am wrong, all North Korea wanted was to negotiate 
with the United States, perhaps even with South Korea? The 
other countries don't seem relevant, but I may be wrong. Could 
you enlighten us on this?
    Mr. Zumwalt. I agree with you that the purpose of talks is 
not to have talks but, rather, to achieve an objective. And our 
objective is denuclearization of the Korean Peninsula. And that 
is why our position now is we won't engage in Six-Party Talks 
until we see that North Korea is serious about implementing its 
international obligations and its own statement that it would 
aim for denuclearization of the Korean Peninsula. So until 
North Korea shows us that it was serious about this, we won't 
be engaging in talks.
    Mr. Faleomavaega. The fact of the matter is--I may be 
wrong--that the only American that has ever met with Kim Jong-
Un was a gentleman by the name of Dennis Rodman. Now, that is 
not exactly my idea of a serious negotiation, but the problem 
is we--if you call them experts or whatever we have out there, 
it is anybody's guess as to what exactly has been in the minds 
of the leaders of North Korea for all this time.
    And I just wanted to ask, Mr. Countryman. You said that we 
do have this 123 nuclear agreement with South Korea. Do we have 
similar agreements with other countries? For example, is it 
similar to the one we have with India?
    Mr. Countryman. Each 123 agreement concluded under the 
authority of the Atomic Energy Act has certain common elements, 
as mandated by Congress, but each has unique elements that 
address the particular level of development of that country and 
the level of cooperation that we in that country are seeking to 
have with each other. So yes, every one is similar, but every 
one has unique characteristics as well.
    Mr. Faleomavaega. Well, I am sure that one of the concerns 
that everybody has is that whether or not some day even South 
Korea may want to have nuclear capabilities for the simple 
reason that it wants to defend itself, no more than you would 
Japan, China, or other countries that have in their possession 
nuclear weapons.
    And I am sure that this is part of the stipulations in this 
agreement that we are working on, but let's say--and I am being 
hypothetical about this. Do you see a real sense of realism in 
the fact that maybe one day South Korea may want to exercise 
that option, that they want to also become a nuclear power, 
just like other countries? Secretary Zumwalt?
    Mr. Zumwalt. President Park has stated very clearly her 
policy that South Korea does not seek nuclear weapons. In her 
address to the joint meeting of Congress, she said she 
supported President Obama's mission of a nuclear-free world. 
And she said let it start on the Korean Peninsula.
    Mr. Faleomavaega. Thank you, Mr. Chairman. My time is up.
    Mr. Chabot. That is quite all right. The gentleman's time 
has expired.
    The gentleman from Texas, Mr. Poe, is recognized.
    Mr. Poe. Thank you both for being here. Thank you for your 
candor, although it seems to me it is a little tactful candor. 
Let me just ask you bluntly, Mr. Zumwalt, does North Korea have 
nuclear weapons in your opinion?
    Mr. Zumwalt. North Korea has engaged in three nuclear 
tests. And we are very concerned about their nuclear weapons.
    Mr. Poe. So that would be? Is that a yes? Pick a horse and 
ride it. Is it yes or no?
    Mr. Zumwalt. They have them, yes.
    Mr. Poe. Mr. Countryman?
    Mr. Countryman. Yes.
    Mr. Poe. All right. Thank you.
    If the United States proceeds after the 123 agreement on a 
long-term agreement with the problem being the advance consent 
to enrichment and reprocessing, do you think in your opinion we 
should make that additional step and grant that to South Korea?
    Mr. Countryman. Well, in the 123 agreement, that is, of 
course, one of several key questions that we are deciding and 
that we are negotiating. So it wouldn't go into deep detail 
about how we would resolve these issues between our two sides.
    Mr. Poe. Do you have an opinion?
    Mr. Countryman. Certainly.
    Mr. Poe. Can I hear what it is?
    Mr. Countryman. My opinion is that it is premature to 
decide every potential question. Rather, what we need to find 
is a process by which the U.S. and the ROK can together as 
partners make smart decisions about technologies on the basis 
of economics, technical feasibility, and nonproliferation 
concerns.
    Mr. Poe. All right. Based on your expertise, both of you, 
we move forward with that step. North Korea, Junior up there, 
what is he going to do? What is he going to say? What is he 
going to do? What is his reaction? I am talking about the 
President Kim. Excuse me.
    Mr. Countryman. I think the ranking member also has already 
pointed out that predictability is not the strongest suit of 
the DPRK. So I am reluctant to make a prediction, but it is an 
issue that we are constantly discussing with our key allies in 
the region, the ROK, and Japan, as well as with the Chinese. 
And I think that we--I will let Mr. Zumwalt comment further, 
but I think we do try to take into account to the extent 
possible the predicted result, the predicted reaction from 
Pyongyang.
    Mr. Poe. Mr. Zumwalt?
    Mr. Zumwalt. Yes. Earlier, when I had said we were looking 
to North Korea to take concrete steps to show it is serious 
about denuclearization, one type of step it could take is 
inviting back IAEA inspect its nuclear program. And that would 
provide a lot of reassurance in the region. So certainly the 
kinds of things we are talking about with South Korea I think 
are the types of things we would like to talk about with North 
Korea as well in terms of oversight of a nuclear program.
    Mr. Poe. Different issue: Japan. What is Japan's position 
on our 123 agreement and with Korea and then if we move forward 
with advance consent to enrichment and reprocessing? Since you 
worked in both places and you speak all of the languages, what 
is your answer? What do you think, Mr. Zumwalt?
    Mr. Zumwalt. You know, Japan right now is undergoing its 
own rigorous debate about the future of its civilian nuclear 
power industry. And, as you know, there is a lot of opposition 
in Japan to continue its civilian nuclear program. At the same 
time, they have a lot of technologies and are interested in 
exporting nuclear power as well. So what I would answer is that 
the debate is ongoing in Japan. And it is not clear how they 
are going to come out.
    Mr. Poe. Maybe my question wasn't clear. I am not really 
talking about Japan. I am talking about Japan's position on us 
dealing with South Korea.
    Mr. Zumwalt. I don't want to speak for the Japanese 
Government, but I have not heard in many years living there 
concerns about the South Korean civilian nuclear program.
    Mr. Poe. Mr. Countryman??
    Mr. Countryman. I would say the same, that the Japanese 
have not expressed, to my knowledge, a view to the U.S. 
Government about our negotiation with a separate partner. I am 
not sure it would be appropriate for them to do so. We deal 
with each friend on our own terms, on the terms of that 
relationship.
    Mr. Poe. And then back to the question. We are all here in 
the next 15 seconds. How would the U.S. economy be affected if 
the 123 agreement is not approved?
    Mr. Countryman. Thank you. As I mentioned, there are 
exports from the United States. I am just trying to find the 
right numbers here. In the last 10 years, from 2001 to 2010, 
nuclear industry exports from the U.S. to the ROK totaled $181 
million in those 10 years. Another example of the kind of 
cooperation is the contract between the ROK and the United Arab 
Emirates for nuclear reactors. Westinghouse and other U.S. 
companies will carry out about 10 percent of the work 
associated with this project, amounting to about $2 billion in 
equipment and services and about 5,000 American jobs across 17 
states.
    Mr. Poe. Thank you, Mr. Chairman.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    The gentlelady from Hawaii, Ms. Gabbard, is recognized for 
5 minutes.
    Ms. Gabbard. Thank you very much, Mr. Chairman, ranking 
member. Thank you, gentlemen, for being here. I actually had a 
follow-up regarding the benefits here, specifically with U.S. 
jobs. I know the time had expired, am wondering if you had 
anything to add specifically on that considering a lot of the 
discussion has taken place on the benefit to our relationship 
with South Korea and the challenges that we are facing there in 
the region. I wanted to see if you could add anything else just 
to what this extension of the current 123 agreement does to 
both benefit the U.S.-Korea alliance but also benefit us here 
in the United States from an economic perspective.
    Mr. Countryman. Thank you. I don't think I will add 
additional numbers. These are estimates generated by the 
Nuclear Energy Institute, an industry association whom we 
respect. I think what I would emphasize that is always a 
concern for us is the predictability of commercial contracts 
that maintaining the kind of cooperation that we have, the kind 
of exports that we hope to grow in the nuclear field requires 
countries such as the ROK and the United States to be able to 
rely on each other and to have that predictable business 
environment. So that is the point that goes beyond the numbers.
    The other point is that the United States and the ROK I 
think have been the most dynamic and innovative of all states 
in developing their nuclear power industries, respectfully. If 
we both want to stay on top of this; that is, we both want to 
continue to have a reputation in the United States for 
producing the world's safest reactors for export, I think that 
we need to have that kind of predictability, which I am 
confident we will achieve by conclusion of a new agreement. We 
need this 2-year extension in the meantime.
    Ms. Gabbard. Thank you. As we talk about how we deal here 
in the United States but also within the region with the 
nuclearization of North Korea, you know, we discuss President 
Obama's meeting with President Xi, President Park meeting with 
him now as well, what do you expect the outcomes of these 
discussions to be in the context of doing something differently 
than we have been to come out with a different outcome and to 
get us out of the vicious cycle that we have been in for so 
long with North Korea. And, really, what are the objectives now 
for the State Department to move toward the clear goal of 
denuclearization?
    Mr. Zumwalt. We have been encouraged by recent discussions 
with the Chinese, including the Chinese President, that China 
shares the same goal that we do of seeing a denuclearized 
Korean Peninsula because I think China has made it very clear 
recent actions by North Korea have not been in China's own 
interest. And so we want to work closely with China to 
implement U.N. sanctions in a way that will be more persuasive 
to change North Korea's mind that it really has to take a 
different approach toward this.
    So right now, our efforts are not on talks with North Korea 
but more on creating the right environment so that in the 
future, we might be able to have such talks leading to 
denuclearization.
    Ms. Gabbard. Do you think China's buy-in to this collective 
strategy is essential to meeting that objective?
    Mr. Zumwalt. China plays an essential role, but they border 
North Korea and have the most vibrant economic relationship. So 
their role is essential, yes.
    Ms. Gabbard. And the last question. You know, South Korea 
in the last few years has been developing its own Korean air 
and missile defense. Understandably with the threat that comes 
from the north, what kinds of coordination and--or has there 
been engagement there so that there is a coordinated effort 
with South Korea and other East Asia allies to make sure that 
the coverage is not duplicative and the efforts are done so in 
a way that benefits our shared interests?
    Mr. Zumwalt. Yes. We have had a long series of discussions 
with our ally, the Republic of Korea, about what needs the 
alliance faces. And given a heightened threat from North Korea 
of North Korea's own missiles, we jointly agree that there is a 
need for some additional capabilities. And that is one reason 
we came to an agreement with Republic of Korea about its 
revised missile guidelines so that we can address some of these 
concerns.
    Ms. Gabbard. And with our allies within the region as well 
as others, has their missile defense development been received 
well?
    Mr. Zumwalt. Yes. In fact, I think everyone is concerned 
about the threat of North Korean missiles and wants to 
strengthen missile defense.
    Ms. Gabbard. Thank you. Thank you, Mr. Chairman.
    Mr. Chabot. Thank you. The gentlelady yields back.
    The gentleman from Florida, Mr. Yoho, is recognized for 5 
minutes.
    Dr. Yoho. Thank you, Mr. Chairman. Gentlemen, good 
afternoon.
    I appreciate you being here. Korea to me is an amazing 
story about where it came from 60 years ago to where we are 
now. And I think we have all seen that satellite picture at 
night of the Southern peninsula and the Northern peninsula. The 
remarkable difference between what happens in a free society, 
we would surely want that to continue.
    Coming from Florida--and my background is in agriculture--
we are real happy about the free trade agreement. And I hear 
from my cattlemen in our district how impressed they are with 
the way the Koreans love our Florida beef, and we want to keep 
that going. In fact, they said they like that. They prefer it 
over the Australian beef. And so we are proud to report that 
back.
    How do you envision a South Korea-China relationship under 
President Park, number one? And how will this affect a 
relationship with South Korea? And how will it affect both of 
their relationships with North Korea?
    Mr. Zumwalt. Well, thank you very much for your endorsement 
of U.S.-Korea free trade policy. We do have a lot of good news, 
particularly in the area of agriculture. Koreans very much 
appreciate high-quality, safe, inexpensive U.S. products. And I 
think we will have bright prospects for the future as well.
    Dr. Yoho. Did I mention our grapefruits from Florida, too?
    Mr. Zumwalt. I was about to say citrus exports have been 
among the brightest of our exports. So yes, that is very good.
    Dr. Yoho. That is good.
    Mr. Zumwalt. But, getting to the Korea-China relationship, 
you know, obviously China to Korea is a very important country. 
It is their largest trading partner. It is a very large economy 
right on their doorstep. But also, in dealing with North Korea, 
the South Korean Government recognizes that China plays a 
critical role.
    We have had extensive discussions with South Korea about 
relations with China. And we are very comfortable with 
President Park's visit. We think it will be helpful in terms of 
convincing China to play a more active role dealing with North 
Korea. So we are expecting to hear some good results of her 
visit there and want to continue working closely with Korea as 
we both engage China.
    Dr. Yoho. Thank you.
    Mr. Countryman??
    Mr. Countryman. Nothing to add, sir
    Dr. Yoho. Nothing? You know what? I have got to give you 
guys credit. I have been through a lot of these. You guys have 
short, succinct answers. And I know we all appreciate that. I 
hope my questions are short and succinct.
    Let's see. What can the administration do to strengthen 
U.S. relationships in the Republic of South Korea? I mean, what 
else can we do?
    Mr. Zumwalt. You know, obviously, although we have an 
agreement on Korea, U.S. free trade agreement, we do have 
implementation going forward and want to continue engaging with 
each other to make sure implementation goes smoothly. Our 
agreement is that by 2016, 95 percent of U.S. manufactured 
exports would enter Korea duty-free. And so we anticipate 
increased exports but obviously want to keep working to make 
sure that the promise of that agreement is implemented.
    On people-to-people ties, we have some very good prospects 
to continue encouraging Koreans to visit the United States, 
come to U.S. colleges. I know immigration issues are being 
debated now, and that is----
    Dr. Yoho. The visa agreement increase, that would help? 
That would----
    Mr. Zumwalt. That is a very important discussion and is 
something that could continue strengthening ties. And, then, 
finally, continuing to strengthen our security alliance is very 
important. Several members have commented on how North Korean 
threats create a perception in South Korea of a challenge. And 
so one thing we need to do is to continue reassuring our allies 
that we will be there for them, we will be providing our 
extended deterrence guarantee, the nuclear umbrella so that 
Korea is not tempted to implement its own nuclear policy, they 
can count on us. And we need to keep providing that 
reassurance.
    Dr. Yoho. Okay. Thank you.
    Same?
    Mr. Countryman. Well, from where I sit, I would only 
emphasize the security relationship. Our security commitment to 
each other is absolutely unbreakable, but it is not self-
implementing. That is, we have to work together on a daily 
basis, make sure we understand each other, make sure we have 
divided our roles and responsibilities accurately. And I think 
that we do that on a daily basis.
    The military-to-military relationship and the 
understandings we have with each other on the political level, 
that kind of security understanding is the backbone of this 
relationship.
    Dr. Yoho. Okay, Thank you.
    Mr. Chairman, I yield back my time. Thank you.
    Mr. Chabot. Thank you. The gentleman yields back.
    The ranking member, Mr. Sherman, is recognized for 5 
minutes.
    Mr. Sherman. Thank you.
    Ambassador Zumwalt, I will spare you a question. I will 
just give you the comment. We have seen an increase in imports 
from South Korea that is larger than the increase in exports. 
In fact, we have seen a decline in exports after the 
effectiveness, after the U.S.-Korea free trade agreement went 
into effect.
    Others from the administration in this room have said, 
``Well, there is not necessarily a relationship between trade 
deficits and the loss of jobs.'' And, rather than let you 
repeat that canard, I will simply go on to Assistant Secretary 
Countryman. But there is not a foreign service in the world 
that is not ten times more dedicated to exports than our State 
Department. And there is not a foreign service in the world 
that doubts that trade deficit leads to job losses in their own 
country. The State Department is alone in its approach to 
trade.
    Assistant Secretary Countryman, if I may quote your 
testimony, you say it takes some time to resolve the technical 
issues in the 123 agreement. The problem or the sticking point 
is whether there will be advance consent rights regarding the 
enrichment and reprocessing of U.S. fuel or, that is to say, 
U.S.-origin fuel and fuel that has gone through American 
reactors. Is that accurate? Can you comment on how the United 
States intends to address the enrichment and reprocessing in 
123 agreements with not only Korea but Vietnam, Saudi Arabia, 
Jordan, and others?
    I realize that you don't want to negotiate in public, but 
you are part of a democracy. And Americans would like to know 
what your position is going to be.
    Mr. Countryman. Well, you are right on several points. I 
wouldn't like to negotiate the entire agreement here in public. 
You are also correct that advance consent on use of U.S.-
supplied materials and technology for enrichment and 
reprocessing is an important issue in this agreement. I remain 
convinced that this issue, like everything else that we are 
discussing within the agreement, is susceptible to the kind of 
solution that careful, patient, economic, technical analysis 
will allow us to achieve. And that is exactly the purpose of 
the joint fuel cycle study that we initiated 2 years ago that 
will run for 10 years and that will serve as the basis for 
important joint decisions that we will make about future fuel 
cycle in Korea.
    Mr. Sherman. So that study will be done when?
    Mr. Countryman. 2021.
    Mr. Sherman. So you are seeking an extension for just 2 
years.
    Mr. Countryman. Yes.
    Mr. Sherman. So you will be able to solve the problem when 
you get the study results in 2021, but you are asking for a 2-
year extension? Enlighten me on the math of that.
    Mr. Countryman. Certainly.
    Mr. Sherman. Are you going to be back here every 2 years 
for another 2-year extension?
    Mr. Countryman. God forbid. We are----
    Mr. Sherman. How long have you been working on this? You 
have run out of time. You need another 2 years. How is it 
going?
    Mr. Countryman. We have been negotiating for 3 years. And I 
think it is going well, but I will be more----
    Mr. Sherman. You have been negotiating for 3 years, and you 
need another 2 years. There are very few times where an 
argument lasts 5 years and it is described as ``going well.'' 
But I hope you can get it done in 2 years.
    Mr. Countryman. I will not characterize it as an argument, 
sir. It is complex, without question.
    Mr. Sherman. Difference in approach. Okay. I yield back. 
Thank you.
    Mr. Chabot. The gentleman yields back.
    The gentleman from Texas, Mr. Castro, is recognized for 5 
minutes.
    Mr. Castro. Thank you, Chairman. And thank you, gentlemen, 
for your testimony this afternoon. I want to follow up on a 
little bit of your earlier answers to my colleagues' question 
over here.
    Let me ask you, have recent provocations by North Korea 
affected our relationship with South Korea? And if so, how?
    Mr. Zumwalt. I think, if anything, it has only strengthened 
both sides' recognition that we need to work together very 
closely, both in order to deter provocations but also to forge 
the right kind of diplomatic strategy that may begin to have an 
impact on North Korea.
    Mr. Castro. Sir?
    Mr. Countryman. Nothing to add.
    Mr. Castro. And with respect to the 123 agreements, can you 
describe how they advance the administration's goal of 
nonproliferation, essentially how these agreements make the 
United States safer?
    Mr. Countryman. It is the longstanding policy of the United 
States, successive United States, administration, I think, 
given extra emphasis by President Obama and consistently 
supported by a strong majority in Congress to combat the 
proliferation of nuclear weapons around the world and 
specifically to discourage the spread of enrichment and 
reprocessing technology that are the technical basis for 
development of nuclear weapons. That remains our policy today.
    In order to achieve that policy, we employ, in cooperation 
with partners around the world, a wide variety of tools. We 
rely, for example, upon the nuclear suppliers' group, that 
voluntary grouping of nuclear-capable nations that have reached 
agreement on what they will and won't export to different 
partners around the world.
    We rely also upon the free market around the world in order 
to provide a reliable supply of fuel for nuclear power plans. 
And we seek to supplement that with fuel banks located in the 
United States and in Russia to guarantee against any 
deficiencies in the market so that there is no reasonable 
economic incentive for a country to develop a new enrichment 
capability. And one of the tools we use as well is, of course, 
the nuclear cooperation agreements, 123 agreements, by which 
the United States not only establishes its presence in the 
international markets but also is able to exert a benign 
influence upon states in order to further discourage the spread 
of such enrichment and reprocessing technology. And, taken 
together, we think that these have been successful in 
discouraging the spread of enrichment and reprocessing 
technology.
    Mr. Castro. And there are 25 or so agreements across the 
world? Is that right?
    Mr. Countryman. I think that is about right. I will count 
them up again for you.
    Mr. Castro. Sure. Oh, that is fine. That is fine. I think 
that is what it is.
    Mr. Countryman. 24.
    Mr. Castro. 24. And what has been the effect on American 
industry----
    Mr. Countryman. Yes.
    Mr. Castro [continuing]. Because of these agreements?
    Mr. Countryman. Well, when we are successful, as we 
generally have been, in concluding nuclear cooperation 
agreements, 123 agreements, it gives a very competitive 
American industry the ticket to go in and to persuade other 
countries, whether their utilities are private or public, of 
the important safety and economic benefits of U.S.-supplied 
equipment. So it has enabled us to compete successfully around 
the world in a variety of countries.
    That said, the world is more and more competitive in this 
field. The United States has to do more in order to maintain 
its competitiveness with other countries. And we are committed 
to doing that.
    Mr. Castro. Thank you. I yield back my time, sir.
    Mr. Chabot. The gentleman yields back. We have no 
additional questioners. The chair and I have to go back to 
Judiciary for the markup, so we won't go into a second round 
this afternoon.
    We thank the gentlemen for their testimony. Members, 
without objection, will have 5 days to supplement their 
statements or ask questions.
    Mr. Faleomavaega. Mr. Chairman, I also would like to 
commend our two witnesses for their participation in this 
afternoon's hearing. I deeply appreciate their understanding of 
the issues that we have dealt with this afternoon. Thank you, 
Mr. Chairman.
    Mr. Chabot. Thank you very much. If there is no further 
business to come before the subcommittees, we are adjourned. 
Thank you.
    [Whereupon, at 4:10 p.m., the subcommittees were 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 <all>

</pre></body></html>
